CERTIFICATE OF SERVICE
NO. 19-1180
Robert Radcliffe, et al.
Petitioner(s)
v.
Experian Information Solutions Inc., et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the ROBERT
RADCLIFFE ET AL. REPLY BRIEF OF PETITIONERS, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Michael A. Caddell
Caddell & Chapman
628 East 9th St.
Houston, TX 77007-1722
(713) 751-0400
mac@caddellchapman.com
Counsel for Jose Hernandez,
Lewis Mann, Kathryn Pike,
Robert Randall, Bertram Robison

Cindy D. Hanson
Troutman Sanders LLP
600 Peachtree Street, NE
Suite 3000
Atlanta, GA 30308
(404) 885-3830
cindy.hanson@troutmansanders.com
Counsel for Equifax Information Solutions LLC

Daniel J. McLoon
Jones Day
555 South Flower Street
Fiftieth Floor
Los Angeles, CA 90071-2452
(213) 243-2580
djmcloon@jonesday.com
Counsel for Experian Information Solutions, Inc.

Stephen J. Newman
Stroock & Stroock & Lavan LLP
2029 Century Park East, 16th FL
Los Angeles, CA 90067
(310) 556-5800
Counsel for Counsel for Trans Union LLC

Lucas DeDeus

May 15, 2020
SCP Tracking: Carpinello-30 South Pearl Street-Cover Tan

